No.

In The Supreme Court of the United States
Lonnie Kade Welsh
Vs.
The State of Texas

Certificate of Service
I Lonnie Kade Welsh do hereby declare under penalty of perjury that a true and correct copy has been
served on the State of Texas by placing the same with the United States Postal Service postage pre-paid
on 22nd of June 2020 to:

Ken Paxton
Attorney General of Texas
Attemoy for the Respomdent
P.O. Box

/asvr

A/5ah tx ntU

Respectfully Submittei
Lonnie Kade Welsh #6516607
22600 South Sunset Blvd.
Littlefield, TX 79339

